ATTORNEY GENERAL
DEPARTMENT OF JUSTICE
33 CAPITOL STREET
CONCORD, NEW HAMPSHIRE 03301-6397
GORDONJ.MACDONALD

JANE E. YOUNG
DEPUTY ATTOR.NF.Y nF.NF.R.A T,

AT'l'ORNEY GENERAL

Sent Overnight Via UPS Express (lZ 19A 789 23 10015450)
November 7, 2019
Attn: Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Heidi C. Lilley, Kia Sinclair, Ginger M. Pierro

v.

State of New Hampshire

Docket No.: 19-64

Dear Mr. Harris:
Due to the ongoing caseload within our office, the State of New Hampshire is in need of
additional time to respond to the petition for a writ of certiorari in this matter. We request a
twenty-one (21) day extension of time to complete our response to the Petition for a Writ of
Certiorari. We hope to have our response completed well in advance and do not anticipate any
further extension requests.
We have communicated with counsel for the petitioners, Eric Isaacson, who assents to
this extension request.
Should you have any questions, please do not hesitate t

Solicitor General
NH Department of Justice
Office of the Attorney General
/mek
Cc:

Eric Alan Isaacson, Esquire
Law Office of Eric Alan Issacson
6580 Avenida Mirola
La Jolla, CA 92037-6231

------ Telephone 603-271-3658

•

FAX 603-271-2110

•

TDD Access: Relay NH 1-800-735-2964 ------

